<html>
<title> - SECURING THE MARITIME BORDER: THE FUTURE OF CBP AIR AND MARINE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


     SECURING THE MARITIME BORDER: THE FUTURE OF CBP AIR AND MARINE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2015

                               __________

                           Serial No. 114-25

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                    

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                      U.S. GOVERNMENT PUBLISHING OFFICE
96-171 PDF                     WASHINGTON : 2016                      

_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>  






                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                 Candice S. Miller, Michigan, Chairman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Loretta Sanchez, California
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Lou Barletta, Pennsylvania           Brian Higgins, New York
Will Hurd, Texas                     Norma J. Torres, California
Martha McSally, Arizona              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security..............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Randolph D. Alles, Assistant Commissioner, Office of Air and 
  Marine, U.S. Customs and Border Protection, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Mr. John Roth, Inspector General, Office of Inspector General, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16

 
     SECURING THE MARITIME BORDER: THE FUTURE OF CBP AIR AND MARINE

                              ----------                              


                         Tuesday, July 14, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairman of the subcommittee] presiding.
    Present: Representatives Miller, Vela, and Torres.
    Mrs. Miller. The Committee on Homeland Security 
Subcommittee on Border and Maritime Security will come to 
order.
    The subcommittee is meeting today to examine the future of 
CBP's Office of Air and Marine. In the interest of time, and 
though we don't have too many other Members here, we are going 
to begin. The Democratic conference, I think, has Hillary 
Clinton there and our conference is just concluding, so we are 
waiting on some folks to get here, but--our Ranking Member has 
got another committee hearing I know as well, and so we want to 
accommodate his schedule.
    But we are very pleased to be joined today by General 
Randolph Alles, who is the assistant commissioner for the 
Office of Air and Marine, and Mr. John Roth, who is the 
inspector general for the Department of Homeland Security. We 
welcome both you gentlemen. I will more formally introduce them 
in just a moment.
    But among the CBP's missions and responsibilities, maritime 
security is not often front-page news. Nonetheless, this does 
not mean that it is not an important part of their overall 
border security efforts. Our coastal and maritime borders are 
long and they cover millions of square miles. My home State of 
Michigan alone has over 3,000 miles of Great Lakes coastline 
and shares many, many miles of maritime border. We call it our 
long liquid border with Canada.
    Illicit drug and migrant flows remain principal concerns of 
our border security agencies, and rightly so. However, as we 
have seen on our Nation's California coast as we strengthen 
security along the southern land border, the cartels adapt, 
sending Panga boats as far north now as San Francisco.
    From the Great Lakes to the coast of California to the Gulf 
of Mexico, Caribbean and Central American transit zones, the 
maritime security components of the Department of Homeland 
Security have a lot of sea to cover, and as a result, they must 
coordinate effectively, share intelligence to understand the 
threat, and smartly position resources to stop it. The need for 
maritime domain awareness or the ability to understand where 
illicit traffic is most likely to occur cannot be understated. 
Without this understanding, drugs will continue to transit the 
maritime corridors and migrants will make the perilous journey 
to this country.
    Radar coverage of the Great Lakes and other areas along the 
border is far from complete, which could allow low-flying 
aircraft, it does actually allow, low-flying aircraft and 
vessels to move drugs and other contraband with ease. Within 
Customs and Border Protection, CBP's Office of Air and Marine 
has a fleet of over 280 marine vessels and more than 250 
aircraft, making it essentially the largest civilian law 
enforcement air force in the world. They have enormous 
responsibility to interdict drugs and migrants using the sea as 
a means to enter the country.
    So today we want to explore how CBP Air and Marine, a 
relatively small operational component of CBP, fits into the 
larger maritime security strategy of DHS and how Air and 
Marine's authorities support and complement the Coast Guard's 
security and interdiction missions. Border Patrol's 
responsibilities provide aviation support to other components 
like ICE and FEMA and, most importantly, examine the security 
value that American taxpayers are getting for the roughly $750 
million that they spend every year.
    Without question, the work that the men and women of Air 
and Marine do is very dangerous. Last month one of their 
helicopters was struck by two bullets fired from the Mexican 
side of the border. Thankfully, our agents were not harmed. Air 
and Marine as well has had other serious incidents over the 
last few years, including the complete loss of a maritime 
variant of the Predator on a maritime mission off the coast of 
California. There was an incident where a smuggler fired 
multiple rounds from an AK-47 at our agents near the Virgin 
Islands. Then we had a recent collision with another vessel off 
the coast of California that resulted in the capsize of the 
vessel and loss of life.
    The vessels and aviation assets that our agents use to 
perform this dangerous work are aging. Recapitalization of the 
aging CBP Air and Marine fleet has long been a priority and a 
significant budgetary challenge as well for our Nation. For 
example, Air and Marine has experienced difficulty procuring a 
new coastal interceptor vessel to replace the Midnight Express, 
which is a boat that they first acquired long before the 
creation of the Department of Homeland Security.
    While I am pleased that CBP has awarded a contract to 
procure up to 52 coastal interceptor vessels just 2 weeks ago, 
this award does come after a series of delays and nearly 5 
years from the time that CBP initially announced its intent to 
purchase new marine vessels to replace the aging fleet, which 
has been in service, again, since the 1980s.
    Better planning between the Office of Air and Marine and 
the Coast Guard has the potential to save taxpayers' dollars, 
especially when components conduct similar missions and have 
recently procured similar boats, fixed-wing aircraft, and 
helicopters. The Department needs to ensure components are 
working together to ensure efficiencies can be gained both 
operationally and with procurement of additional assets.
    In addition, this subcommittee and committee has been on 
record multiple times calling for robust border security 
metrics that measure the state of border security, and they are 
largely absent in the border security debate, and a valuable 
tool to help CBP deploy resources appropriately or come to 
Congress with additional needs. Finding the right set of 
metrics to gauge performance is not an easy task, but it must 
be done.
    Air and Marine, as the inspector general has recently 
reported, has struggled to develop clear, concrete performance 
metrics that will help Congressional decision makers and the 
American people understand how they contribute to border 
security at the air and maritime domain and at what costs.
    So we look forward certainly to hearing from Mr. Roth on 
the two controversial inspector general reports that cast some 
doubt on the true cost of the UAV program and missed 
opportunities to save the taxpayers' dollars by leveraging 
existing DHS resources to upgrade Air and Marine helicopters. I 
am sure that the general has his own views on these reports as 
well.
    When it comes to outlining the future of this agency, I 
certainly understand that Air and Marine strategy is currently 
in its final stages of approval, but was not yet ready in time 
for this hearing. So I hope the general will be able to share 
key aspects of his new strategy with Members to help us 
understand where he sees this organization going and present 
his vision for the future of CBP Air and Marine.
    Finally, last month the House passed for the second time 
CBP authorization language that I actually authored, and this 
clearly demonstrates that this committee is keenly interested 
in the future of this organization and the maritime security 
value that it provides to the Nation.
    So we look forward to hearing from our witnesses today. I 
want to thank you both for appearing here today as well.
    [The statement of Chairman Miller follows:]
                  Statement of Chairman Candice Miller
                             July 14, 2015
    Amongst CBP's missions and responsibilities, maritime security is 
not often front-page news. Nonetheless, this does not mean it is not an 
important part of their overall border security efforts. Our coastal 
and maritime borders are long and cover millions of square miles. My 
home State of Michigan alone has over 3,000 miles of Great Lakes 
coastline and shares many miles of maritime border with Canada.
    Illicit drug and migrant flows remain principle concerns of our 
border security agencies, and rightly so. However, as we have seen on 
our Nation's California coast, as we strengthen security along the 
southern land border, the cartels adapt--sending panga boats as far 
north as San Francisco.
    From the Great Lakes, to the coast of California, to the Gulf of 
Mexico, Caribbean and Central America transit zones, the maritime 
security components of the Department of Homeland Security have a lot 
of sea to cover. As a result, they must coordinate effectively, share 
intelligence to understand the threat, and smartly position resources 
to stop it.
    The need for maritime domain awareness, or the ability to 
understand where illicit traffic is most likely to occur, cannot be 
understated. Without this understanding, drugs will continue to transit 
the maritime corridors and migrants will make the perilous journey to 
this country. Radar coverage of the Great Lakes, and other areas along 
the border, is far from complete, which could allow low-flying aircraft 
and vessels to move drugs and other contraband with ease.
    Within Customs and Border Protection, CBP's Office of Air and 
Marine has a fleet of over 280 marine vessels and more than 250 
aircraft, making it essentially the largest civilian law enforcement 
air force in the world. They have an enormous responsibility to 
interdict drugs and migrants using the sea as a means to enter the 
country.
    Today, I want to explore how CBP Air and Marine, a relatively small 
operational component of CBP, fits into the larger maritime security 
strategy of DHS. How Air and Marine's authorities support and 
compliment the Coast Guard's security and interdiction missions, Border 
Patrol's riverine responsibilities, provide aviation support to other 
components like ICE and FEMA, and most importantly, examine the 
security value that American taxpayer is getting for the roughly $750 
million dollars they spend every year.
    Without question, the work that the men and women of Air and Marine 
do is dangerous. Last month, one of their helicopters was struck by two 
bullets fired from the Mexican side of the border. Thankfully our 
agents were not injured. And Air and Marine has had other serious 
incidents over the last few years including: The complete loss of a 
maritime variant of the Predator on a maritime mission off the coast of 
California, an incident where a smuggler fired multiple rounds from an 
AK-47 at our agents near the Virgin Islands and a recent collision with 
another vessel off the coast of California that resulted in the capsize 
of the vessel and the loss of life.
    The vessels and aviation assets our Agents use to perform this 
dangerous work are aging. Recapitalization of the aging CBP Air and 
Marine fleet has been a long-term priority and a significant budgetary 
challenge. For example, Air and Marine has experienced difficulty 
procuring a new Coastal Interceptor Vessel to replace the Midnight 
Express, a boat they first acquired long before the creation of DHS.
    While I am pleased CBP awarded a contract to procure up to 52 
Coastal Interceptor Vessels just 2 weeks ago, this award comes after a 
series of delays, and nearly 5 years from the time CBP initially 
announced its intent to purchase new marine vessels to replace the 
aging fleet, which has been in service since the '80s.
    Better planning between the Office of Air and Marine and the Coast 
Guard has the potential to save taxpayer dollars, especially when 
components conduct similar missions and have recently procured similar 
boats, fixed-wing aircraft and helicopters. The Department needs to 
ensure components are working together to ensure efficiencies can be 
gained both operationally and with the procurement of additional 
assets.
    In addition, this subcommittee and committee has been on record 
multiple times calling for robust border security metrics that measure 
the state of border security. They are largely absent in the border 
security debate, and a valuable tool to help CBP deploy resources 
appropriately or come to Congress with additional needs.
    Finding the right set of metrics to gauge performance is not an 
easy task, but it must be done.
    Air and Marine, as the Inspector General has recently reported, has 
struggled to develop clear, concrete performance metrics that will help 
Congressional decision makers and the American people understand how 
they contribute to border security in the air and maritime domain, and 
at what cost.
    I look forward to hearing from Mr. Roth on the two controversial 
Inspector General Reports that cast some doubt on the true cost of the 
UAV program and missed opportunities to save the taxpayer dollars by 
leveraging existing DHS resources to upgrade Air and Marine 
helicopters. And I'm sure General Alles has his own views on these 
reports.
    When it comes to outlining the future of this agency, I understand 
Air and Marine strategy is currently in its final stages of approval, 
but was not yet ready in time for this hearing. I hope General Alles 
will be able to share key aspects of his new strategy with Members to 
help us understand where he sees this organization going and present 
his vision for the future of CBP Air and Marine.
    Finally, last month the House passed, for the second time, CBP 
authorization language I authored. This clearly demonstrates that this 
committee is keenly interested in the future of this organization and 
the maritime security value it provides to the Nation.
    I look forward to hearing from our witnesses and thank you both for 
appearing before us today. With that I recognize the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Vela, for any opening 
statement he may have.

    Mrs. Miller. With that, I would like to recognize the 
Ranking Member from the subcommittee, the gentleman from Texas, 
Mr. Vela, for his statement.
    Mr. Vela. Thank you. The purpose of today's hearing is to 
examine the future of U.S. Customs and Border Protection's 
Office of Air and Marine. Air and Marine's mission covers both 
aerial and maritime surveillance of our borders as well as 
interdiction of people and goods crossing illegally into our 
country in the areas between the ports of entry.
    As the Ranking Member of this subcommittee and representing 
a district along the Texas-Mexico border, I have a strong 
interest in Air and Marine's efforts to better secure our 
Nation's borders. Indeed, Air and Marine has a marine unit 
based out of Brownsville, Texas, the largest city in my 
Congressional district, right on the Gulf of Mexico.
    Given that Air and Marine provides specialized air and 
marine support to various Federal, State, and local law 
enforcement partners, I believe today's discussion should help 
us all better understand Air and Marine's specific role in 
border security.
    Certainly the Southwest Border is a very active region in 
terms of both legitimate trade and with respect to security 
concerns. As the Chairman mentioned, just last month we know 
that one of OAM's helicopters was patrolling the river near 
Laredo, Texas, and was hit by gunfire. Today I hope that we are 
able to have a rigorous and thorough discussion on Air and 
Marine's overall operations and how they fit in with the 
Department of Homeland Security's broader border security 
strategy.
    In particular, I would like to learn more about how the 
marine and air assets under Air and Marine's purview are being 
used to support DHS's border security operations. Last year's 
report by the DHS Office of Inspector General on CBP's unarmed 
aircraft system program underscores the need to ensure that our 
limited border security resources are being used in the most 
effective way possible.
    Lastly, I would be interested in hearing how Air and Marine 
works with other components within the Department of Homeland 
Security to meet the Department's border security mission; 
specifically, learning how Air and Marine partners with the 
Coast Guard on marine patrols and interdictions would be very 
beneficial. On the surface, it would seem there is some overlap 
in these sorts of operations, and gaining a clear understanding 
of how the two DHS components complement each other will help 
our committee's border security oversight and legislative work.
    I would like to close by thanking the Chair for holding 
this hearing and our witnesses for joining us today, and I 
yield back the balance of my time.
    Mrs. Miller. I thank the gentleman from Texas very much for 
his opening statement. Other Members are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 14, 2015
    In order to fulfill its mission, Office of Air and Marine (OAM) 
uses its integrated air and marine force to detect and interdict the 
unlawful movement of people, illegal drugs, and other contraband moving 
toward or crossing the borders of the United States. As Ranking Member 
of the Committee on Homeland Security, I am aware of the varied border 
security surveillance and interdiction operations OAM carries out both 
on the water and in the air.
    OAM's authorities also allow it to provide specialized air and 
marine support to various Federal, State, and local law enforcement 
agencies, such as assisting FEMA in response to natural disasters. 
Unfortunately, various reviews conducted by DHS's Office of the 
Inspector General (OIG) and the Government Accountability Office (GAO) 
have raised concerns about certain OAM programs.
    In response, the OIG and GAO have made a number of recommendations 
over the past several years to ensure OAM's assets and personnel are 
best positioned to effectively meet mission needs and address border 
security threats. For instance, in December 2014, the OIG published a 
report on CBP's unmanned aircraft system (UAS) or ``drone'' program.
    The report concluded that despite spending 8 years and hundreds of 
millions of taxpayer dollars on its UAS program, CBP cannot prove the 
program is effective and that its impact in stemming illegal 
immigration has been minimal.
    The report also concluded there are serious questions about whether 
the program has led to a greater number of apprehensions, reduced 
border surveillance costs, or increased efficiency by the U.S. Border 
Patrol along our Southwest Border.
    The Inspector General summarized their findings saying, 
``Notwithstanding the significant investment, we see no evidence that 
the drones contribute to a more secure border, and there is no reason 
to invest additional taxpayer funds at this time.'' Among the OIG's 
recommendations was for OAM to establish attainable performance 
measures to determine the effectiveness of the UAS program at enhancing 
border security.
    Additionally, the OIG recommended the development of ``policies and 
procedures to ensure that [the Office of Air and Marine] accumulates 
and reports all costs associated with the UAS program and other OAM 
flight programs.'' I know OAM vehemently disagrees with the OIG report, 
and I am aware that Members of this committee have asked the GAO to 
look at many of the same issues. Today, I would like to hear about what 
steps OAM has taken, if any, to respond to the OIG's recommendations, 
given the UAS program's significant cost and its purported benefits to 
border security.
    Lastly, I am concerned about use of force issues within CBP 
generally, and would like to hear today about how these issues are 
handled within OAM in particular. I am aware that the CBP commissioner 
has begun implementing new policies and procedures regarding use of 
force incidents.
    Given that in the past few months OAM has been involved in two 
fatal use of force incidents--one off the California coast and another 
near the British Virgin Islands--I would like to know more about OAM's 
use of force protocols and whether they are being modified as a result 
of the commissioner's recent initiatives. Finally, I hope to hear about 
what this committee can do to assist the Office of Air and Marine in 
meeting its mission as effectively and efficiently as possible.

    Mrs. Miller. At this time, again, we are pleased to be 
joined by our two distinguished witnesses to discuss this very 
important topic today.
    General Randolph Alles is the assistant commissioner for 
CBP's Office of Air and Marine. It is a position that he has 
held since January 2003. In this role, the general is charged 
with overseeing the OAM mission of using aviation and maritime 
assets to detect, interdict, and prevent acts of terrorism and 
the unlawful movement of drugs and other contraband from 
entering the United States. Before joining OAM, he spent 35 
years in the United States Marine Corps, retiring in 2011 as a 
major general.
    Mr. John Roth became the inspector general for the 
Department of Homeland Security in March 2014. He has a long 
record of public service, which includes time at the Food and 
Drug Administration, where he served as director of the Office 
of Criminal Investigations, and the Department of Justice, 
where among many other positions, he served as the assistant 
U.S. attorney for the Eastern District of Michigan. Glad to 
note that as well.
    Their full statement, full written statement will appear in 
the record.
    The Chair now recognizes General Alles for his testimony.

STATEMENT OF RANDOLPH D. ALLES, ASSISTANT COMMISSIONER, OFFICE 
  OF AIR AND MARINE, U.S. CUSTOMS AND BORDER PROTECTION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Alles. Good morning, ma'am, Chairman Miller, and 
Ranking Member Vela. It is great to appear before you this 
morning and to see you again, and also the distinguished 
Members of the committee.
    I would like to discuss this morning the role of U.S. 
Customs and Border Protection's Office of Air and Marine, OAM, 
as I will abbreviate it during my discussion here, in securing 
our Nation's maritime border, since that is the focus of our 
conversation today.
    So I realize the intent today is to assess operations and 
organization of OAM to ensure we are effectively and 
efficiently serving the American people. I support the 
committee's effort to do this in its oversight. I appreciate 
the opportunity to share with you the important mission set and 
capabilities OAM brings to CBP's border security effort and 
also the larger homeland security effort.
    The threat in the maritime environment is dynamic. 
Smugglers continually adjust their tactics in order to counter 
our latest efforts to apprehend them. Increasingly smugglers 
exploit normal traffic patterns to conceal their intent, often 
mimicking a legitimate recreational or commercial voyage. Small 
vessels in particular are ideal conveyances for this tactic, 
because they operate in a largely unregulated environment, 
while providing opportunity for concealing people or cargo.
    Addressing this dynamic maritime threat requires a 
specialized, agile, and adaptive law enforcement organization 
with a cadre of professional agents empowered to investigate 
complex cases and a unique blend of the authorities and 
expertise to pursue investigations across multiple 
environments, the sea, the air, or the land, and jurisdictional 
boundaries.
    So OAM thrives by being adaptive and efficient. Our unique 
authorities and specialized capabilities enable us to bridge 
border environments and jurisdictions, providing important 
continuity to investigations.
    OAM's maritime interdiction agents have a singular law 
enforcement mission. They are empowered to take necessary 
action, including conducting searches and investigations, 
obtaining and serving warrants, and making arrests and 
seizures. Our agents undergo intense training in maritime 
tactics in order to swiftly and safely interdict smuggling 
threats and mitigate the dangers of prolonged pursuits. 
Additionally, they are experts in interview technique and they 
are well-versed in applicable laws.
    Our professional law enforcement agents in their broad 
investigative authorities are critical to maritime border 
security efforts. OAM agents, sometimes in plain clothes or 
undercover, routinely collaborate with investigative partners, 
some of which you have already mentioned, on covert 
surveillance and enforcement operations in the maritime domain. 
This capability is essential in combatting a threat that 
thrives on concealment in legitimate traffic, which is one of 
our biggest threats.
    OAM's specialized fleet of vessels, particularly our next 
generation coastal interceptors, are built from the hull up for 
interdiction. These high-performance vessels enable our agents 
to respond quickly and effectively to incursions to our 
territorial waters.
    With limited number of agents and assets, OAM has a 
substantial impact on efforts to protect our Nation's borders. 
OAM efforts have resulted in the seizure of significant 
quantities of contraband and disrupted considerable illicit 
activity before it reaches our shores. In fiscal year 2014, OAM 
efforts resulted in nearly 5,000 arrests of suspects, 80,000 
apprehensions, the seizure of nearly 800 weapons, $148 million 
in currency, and more than 1 million pounds of illegal drugs.
    Ultimately, maritime security requires a unity of effort, 
something already discussed. No single entity has the 
capability or capacity to address all aspects of maritime 
security. Information sharing and strong partnerships are 
critical to understanding and addressing maritime threats.
    We frequently participate in joint operations with a 
variety of Federal partners, including the U.S. Coast Guard, 
the U.S. Navy; we work closely with multiple investigative 
components, particularly the U.S. Immigration and Customs 
Enforcement. We are the leading provider of airborne detection 
and monitoring to the Joint Interagency Task Force South. There 
are counternarcotic efforts in the Southeast coastal, and the 
source and transit zones where maritime radar is necessary to 
detect threats moving towards the United States.
    The recently implemented Southern Border approaches 
campaign leverages the various roles and responsibilities and 
capabilities of multiple DHS agencies to comprehensively 
address border and maritime threats. OAM has been extensively 
involved in the planning and development of all three of the 
campaigns' joint task forces. The JTF East deputy commander is 
actually an OAM employee, Mr. Merton Cox.
    So moving forward, we will continue to enhance our 
detection, investigation, and interdiction capabilities to 
address emerging threats and adapt to changing conditions in 
the maritime domain. We will fully network our fleet and 
operational centers to share critical information in real time. 
OAM is an integral part of CBP's border security mission. We 
blend specialized interdiction capabilities, skilled 
investigators, a modern domain awareness network, and 
seamlessly apply them all across multiple environments and 
jurisdictions. In doing so, we add a critical layer of cohesion 
and coordination to maritime border security that no other 
agency is providing.
    Chairman Miller, Ranking Member Vela, and distinguished 
Members of the committee, thank you for this opportunity to 
testify today. I look forward to your questions. Thank you 
again.
    [The prepared statement of Mr. Alles follows:]
                Prepared Statement of Randolph D. Alles
                             July 14, 2015
                              introduction
    Chairman Miller, Ranking Member Vela, and distinguished Members of 
the subcommittee, it is a pleasure to appear before you today to 
discuss U.S. Customs and Border Protection (CBP) Office of Air and 
Marine (OAM) efforts to secure our Nation's maritime borders. OAM is a 
Federal law enforcement organization dedicated to serving and 
protecting the American people.
    As America's front-line border agency, CBP is responsible for 
securing America's borders against threats while facilitating the 
lawful flow of people and goods entering the United States. OAM is a 
critical component of CBP's border security mission and the Department 
of Homeland Security's (DHS) risk-based and multi-layered approach to 
homeland security. We apply advanced aeronautical and maritime 
capabilities and employ our unique skill sets to protect our Nation's 
borders and preserve America's security interests.
    OAM's mission falls into four broad categories that reflect our 
core competencies: Interdiction, Investigation, Domain Awareness, and 
Contingencies and National Taskings. These competencies are 
interdependent and complementary and leverage our expertise in the air 
and maritime environments. We prioritize the development of this 
organizational expertise throughout our recruitment and training, 
material acquisitions and program development, and we tailor our law 
enforcement capabilities and assets to our specialized mission.
    A relatively small organization, OAM thrives by being extremely 
efficient and adaptive. Additionally OAM leverages its capabilities by 
empowering its operational units to forge crucial partnerships.
    In the maritime environment, we operate effectively with a variety 
of Federal, State, and local partners, including frequent joint 
operations with the United States Coast Guard (USCG) and the United 
States Navy. Through our integration with CBP, as well as our legacy 
history with U.S. Customs, we enjoy a close working relationship with 
other investigative components within DHS, particularly U.S. 
Immigration and Customs Enforcement (ICE). These relationships, coupled 
with our broad authorities, allow OAM to follow cases wherever they 
lead--from the air, to the sea and on to land, or from an investigative 
lead to an interdiction at sea. We also frequently cooperate directly 
with foreign governments. In this way, OAM lends critical capabilities 
and cohesion to an array of border security and maritime law 
enforcement efforts.
    One example of these efforts is a recent operation conducted by OAM 
Marine Interdiction Agents (MIAs) based in Fort Lauderdale, Florida. 
After boarding and searching a sailing vessel arriving from the 
Bahamas, the team discovered approximately 220 pounds of cocaine 
concealed in a bilge area. The agents elected to pursue the 
investigation further, and asked the suspect if he would facilitate a 
``controlled delivery,''--a ruse whereby a smuggling suspect agrees to 
deliver the contraband as planned, but under observation by law 
enforcement. The suspect agreed, and the agents contacted their 
partners on the local Border Enforcement Security Task Force (BEST) to 
help coordinate the delivery. OAM and other BEST agents completed the 
delivery successfully, resulting in the arrests of two suspects and the 
seizure of the cocaine, one sailboat, one truck, and $1,650 in cash. 
The exploitation of the initial seizure was only possible due to the 
authorities and expertise of the OAM agents, and close working 
relationships with other investigators.
    Our greatest resources are the sound judgment and experience of our 
agents, who average 17 years of law enforcement experience with OAM. 
Over 60 percent of these sworn agents are veterans of the Armed 
Services, and many have prior experience in law enforcement. All agents 
receive intensive training in applicable law, use of force, 
investigative techniques, Spanish language, and more upon entrance into 
service. Soon after, they undergo additional advanced training in 
tactics and the safe operation of vessels and aircraft. All agents are 
empowered to apply the full range of their legal authorities when 
conducting interdictions or investigations, in strict accordance with 
the law. This high level of training and experience allows us to 
empower our agents to make critical, real-time decisions on-scene, 
allowing for an informed, rapid response to exigent scenarios.
    OAM is uniquely positioned--organizationally, via broad enforcement 
authorities and jurisdiction, and with unequaled specialized training, 
equipment, and domain awareness capability--to protect America's 
security interests beyond the Nation's border in source and transit 
zones, between ports of entry, in our coastal waters, and within the 
Nation's interior.
                        a secure maritime border
    Thousands of vessels enter or operate in U.S. territorial sea 
daily. Though the vast majority do so for purposes of recreation or 
legitimate commerce, a small percentage engage in smuggling and other 
illegal activity. Apprehending these smugglers can be daunting, as many 
mimic legitimate traffic while others elude detection altogether.
    This challenge is similar to one faced by the United States in the 
1970s and 1980s, as air smugglers exploited known gaps in offshore 
radar coverage to deliver narcotics, often by air-drop or by ``popping 
up'' inside U.S. airspace and emulating a domestic flight. The United 
States response in those situations included increasing air domain 
awareness by deploying and linking additional air surveillance radars, 
and increasing its coordinated response capability via air interceptors 
and other assets. With increased awareness and response, U.S. Customs 
was able to leverage a highly-regulated air environment to identify 
evasive or non-compliant aircraft and target them for enforcement. The 
result was an unprecedented state of air security that persists today, 
with OAM maintaining air domain awareness via the functionality at the 
Air and Marine Operations Center (AMOC) and an air intercept capability 
in its present-day fleet.
    A secure maritime border presents additional challenges. Unlike air 
traffic, small vessels \1\ inbound to the United States are generally 
not required to announce their arrivals in advance, nor are they 
required to make their initial landing at a designated port of entry. 
Additionally, small vessels have no requirement to continually 
broadcast their position via transponder.\2\ Therefore, many of the 
tools used to sort legitimate air traffic from the illegitimate are not 
available in the maritime environment. A secure maritime border is one 
where there is an effective understanding of the maritime domain, with 
awareness of traffic moving in or toward U.S. waters, and the ability 
to infer intent and interdict as necessary. Achieving this state 
requires:
---------------------------------------------------------------------------
    \1\ ``Small vessels'' are characterized as any watercraft, 
regardless of method of propulsion, less than 300 gross tons. Small 
vessels can include commercial fishing vessels, recreational boats and 
yachts, towing vessels, uninspected passenger vessels, or any other 
commercial vessels involved in foreign or U.S. voyages. DHS, Small 
Vessel Security Implementation Plan Report to the Public, January, 
2001, page 1. http://www.dhs.gov/xlibrary/assets/dhs-uscg-small-vessel-
security-strategy-report-to-public-012011.pdf.
    \2\ While the Maritime Transportation Security Act of 2002 (MTSA) 
and the International Convention for the Safety of Life at Sea (SOLAS) 
require many commercial, passenger, and commercial fishing vessels to 
operate with an Automatic Identification System (AIS), a tracking 
system to, among other things, increase maritime awareness, the 
requirement does not cover many small vessels.
---------------------------------------------------------------------------
  <bullet> Maritime Domain Awareness.--Detection capability in the form 
        of fixed and mobile sensors, an effective distribution network, 
        and current information that facilitates evaluation and 
        decision making, such as track history and projected movements.
  <bullet> Law Enforcement Information.--Knowledge of criminal intent 
        or practices typically gained through law enforcement activity, 
        such as case information, confidential human sources, 
        undercover work, covert surveillance, classified intelligence, 
        etc.
  <bullet> Response Capability and Capacity.--The ability to interdict 
        quickly and effectively in the maritime domain. This is a 
        function of personnel, equipment, training, and expertise.
  <bullet> Unity of Effort.--The various attributes of maritime 
        security and law enforcement agencies are complimentary by 
        design. No single entity has the capability or capacity to 
        address all aspects of maritime security. Unfettered 
        information sharing is critical to understanding the nature of 
        maritime threats. Effective coordination must occur across 
        organizational and jurisdictional lines.
  <bullet> Small Vessel Accountability.--Increased accountability of 
        small vessel arrivals from foreign countries and transmission 
        of position via beacon or transponder while underway. This will 
        dramatically improve maritime domain awareness and result in 
        non-compliant vessels self-selecting for further investigation.
    OAM believes that a secure maritime border is achievable. We are 
focusing our strategic planning efforts to this end, with emphasis on 
domain awareness, investigations, enhanced interdiction capabilities 
and a networked approach to coordination with our partners.
                              oam overview
    Prior to the establishment of DHS, the assets and personnel that 
comprise OAM were distributed between multiple legacy agencies, 
including the U.S. Customs Service and the U.S. Border Patrol. Under 
DHS, these resources were consolidated and integrated into CBP to 
realize greater operational effectiveness and efficiencies in executing 
the new homeland security mission. Today, OAM operates in accordance 
with the Secretary's Unity of Effort memorandum, with goals aligned to 
those delineated in the DHS 2014-2018 Strategic Plan, the DHS Southern 
Border and Approaches Campaign and CBP's Vision and Strategy 2020.
    One immediate benefit gained through the merger was consolidated 
aircraft maintenance. OAM integrated maintenance and logistics for its 
aircraft under a single contract to provide standard support across 
locations, improve accountability and aircraft safety, and ensure 
common configurations.
    OAM operations are divided into three regions: The Southwest 
Region, the Northern Region, and the Southeast Region. Each region is 
split into Air and Marine Branches, and then further divided into Air 
and/or Marine Units. OAM also operates two unique operational entities: 
National Air Security Operations (NASO) and AMOC. NASO, operating out 
of six centers Nation-wide, coordinates operational activities, long-
range planning and project oversight for the P-3 Long Range Tracker 
aircraft and unmanned aircraft system (UAS) programs. AMOC is a state-
of-the-art law enforcement operations coordination and domain awareness 
center that conducts air and marine surveillance operations and fuses 
numerous sources of intelligence.
    OAM's 1,272 law enforcement personnel operate 257 aircraft, 283 
vessels,\3\ and a sophisticated domain awareness network across the 
United States. These assets provide critical aerial and maritime 
surveillance, interdiction, and operational capability in support of 
OAM's maritime border security mission. OAM continues to modernize its 
fleet and sensor systems to enhance our operational performance in 
diverse marine environments and increase our ability to adapt to the 
challenges of securing the maritime border and approaches to the United 
States.
---------------------------------------------------------------------------
    \3\ OAM owns and maintains CBP's 283 vessels, including riverine 
vessels that are operated by the U.S. Border Patrol.
---------------------------------------------------------------------------
                    oam law enforcement authorities
    An integral part of CBP's border security mission, OAM agents are 
credentialed law enforcement officers with a broad range of authorities 
that enable them to transcend land, air, and sea domains and 
jurisdictions, providing a critical layer of continuity in enforcement 
efforts. First and foremost, OAM agents are sworn Federal law 
enforcement agents. They are authorized to carry firearms, obtain and 
serve warrants, subpoenas and summons, make arrests for any offense 
committed in their presence and make felony arrests without warrant.\4\
---------------------------------------------------------------------------
    \4\ See 19 U.S. Code  1589a.
---------------------------------------------------------------------------
    Within the ``customs waters''\5\ of the United States, or at any 
place within the United States, OAM agents may board a vessel for the 
purpose of enforcing customs law, and to use all necessary force to 
compel compliance.\6\ Additionally, OAM enforces laws on any American 
vessel on the high seas,\7\ and vessels subject to U.S. jurisdiction 
under the Maritime Drug Law Enforcement Act \8\ which concerns the 
trafficking of controlled substances aboard vessels in extraterritorial 
waters. These authorities enable OAM to extend our zone of security 
surrounding our maritime border and littorals of the United States.
---------------------------------------------------------------------------
    \5\ See 19 U.S. Code  1401.
    \6\ See 19 U.S. Code  1581.
    \7\ See 19 CFR 162.3.
    \8\ See Title 46, 46 U.S. Code  70501-70502 ``vessel subject to 
the jurisdiction of the United States'' includes--a vessel without 
nationality; a vessel assimilated to a vessel without nationality under 
paragraph (2) of article 6 of the 1958 Convention on the High Seas; a 
vessel registered in a foreign nation if that nation has consented or 
waived objection to the enforcement of United States law by the United 
States; a vessel in the customs waters of the United States; a vessel 
in the territorial waters of a foreign nation if the nation consents to 
the enforcement of United States law by the United States; and a vessel 
in the contiguous zone of the United States, as defined in Presidential 
Proclamation 7219 of September 2, 1999 that--is entering the United 
States; has departed the United States; or is a hovering vessel as 
defined in section 401 of the Tariff Act of 1930.
---------------------------------------------------------------------------
    In their capacity as CBP law enforcement agents, OAM agents also 
enforce immigration laws in the territorial sea, on land, and in the 
air. Agents within OAM have the same broad immigration authority \9\ as 
the U.S. Border Patrol; however, OAM is in the unique position to 
enforce this authority in the maritime environment. Similar to other 
investigative agencies, our agents recruit confidential sources, 
develop criminal cases, support prosecutors, and testify in court in 
addition to their enforcement actions in the air, land, and maritime 
domains.
---------------------------------------------------------------------------
    \9\ See Title 8, Aliens and Nationality.
---------------------------------------------------------------------------
    This combination of authorities enables OAM to conduct successful 
investigations in the maritime domain.
                    maritime assets and capabilities
    OAM's unique maritime law enforcement mission requires the use of 
marine assets and capabilities--including fixed- and rotary-wing 
aircraft, as well as patrol and interdiction vessels and a 
sophisticated domain awareness network across the United States. OAM's 
maritime assets are tailored to the conditions of the threat 
environment in which we operate, and equipped with the capabilities 
required to interdict illicit smuggling attempts of drugs and 
undocumented aliens.
    Often, there is little time to interdict inbound suspect vessels, 
and OAM has honed its maritime border security response capability 
around rapid and effective interception, pursuit, and interdiction of 
these craft. OAM employs high-speed Coastal Interceptor Vessels (CIV) 
that are specifically designed and engineered with the speed, 
maneuverability, integrity, and endurance to intercept and engage a 
variety of suspect non-compliant vessels in offshore waters, as well as 
the Great Lakes on the Northern Border.
    Our vessels are manned by highly-trained and experienced OAM crews 
authorized to deploy any required use of force, including warning shots 
and disabling fire to stop fleeing vessels. Over the last decade, OAM 
has evolved to counter the egregious threat of non-compliant vessels. 
OAM has developed capabilities to disable non-compliant vessels and to 
bring dangerous pursuits to a conclusion and prevent these vessels from 
reaching our shores. Since 2003, OAM has engaged in 123 cases involving 
marine warning and/or disabling rounds, and three cases involving air 
to vessel warning and disabling rounds.
    OAM often works in partnership with ICE-HSI, the Drug Enforcement 
Administration (DEA), and the Federal Bureau of Investigation (FBI) 
conducting covert operations in the maritime border environment; 
utilizing unmarked and undercover vessels when situations dictate that 
the surveillance of drug loads or transnational criminal organization 
(TCO) activity can yield larger seizures as a part of on-going 
investigations. Some of these covert missions involve OAM agents 
facilitating controlled deliveries with partner agencies through the 
utilization of undercover vessels and the incorporation of undercover 
or plainclothes agents. OAM has a number of unmarked vessels typical to 
local traffic, which are used for this purpose.
    OAM specializes in the installation of covert trackers aboard 
suspect vessels and often conducts these covert missions under hours of 
darkness using plainclothes or undercover tactics. Additionally, OAM 
periodically augments vessel crews from investigative partner agencies 
when a specific vessel certification coupled with investigative 
authority and experience is needed when operating these assets. OAM 
develops and retains confidential human sources in the maritime 
environment, which have been instrumental in effecting significant 
seizures.
    Although OAM routinely makes seizures through maritime border 
patrols, the majority of arrests and seizures are the result of 
actionable information or detection by aircraft. CBP's P-3 Long Range 
Tracker and Airborne Early Warning aircraft are multi-role high-
endurance aircraft capable of performing border security mission sets 
in the air and maritime environments. Equipped with a multitude of 
highly sophisticated communications equipment, radar and imagery 
sensors, operated by highly-trained professional sworn law enforcement 
agents and officers, the P-3 is accredited with the interdiction of 
122,427 pounds of cocaine and 5,918 flight hours within the Western 
Hemisphere Transit Zones in fiscal year 2014, which equated to 20.7 
pounds of narcotics interdicted per flight hour.
    The integration of unmanned aircraft systems (UAS) have provided 
critical enhancements to OAM's air, land, and maritime border domain 
awareness and capabilities. UAS provide high-endurance intelligence, 
surveillance, and reconnaissance of land borders, inland waters, 
littoral waters, and high seas with multiple advanced sensor arrays. 
The use of UAS in the maritime environment has increased OAM's ability 
to effectively detect, monitor, and track both personnel and 
conveyances involved in illegal activity.
    Another important maritime security asset is the DHC-8 Maritime 
Patrol Aircraft (MPA). It is a medium-range airplane that bridges the 
gap between the strategic P-3 and UAS, and smaller aircraft operating 
in the littoral waters. It is outfitted specifically for maritime 
patrol with state-of-the art sensors and systems. The DHC-8 has 
provided game-changing detection capability in the Caribbean, Florida, 
and the Gulf of Mexico.
    CBP's aerial surveillance capabilities in the maritime environment 
have been enhanced through recent investments and deployments of a 
Multi-Role Enforcement Aircraft (MEA). The MEA provides OAM a 
replacement for several of its older maritime patrol aircraft, 
enhancing OAM's ability to maintain domain awareness of the U.S. 
littorals and coastline. Additionally, the multi-role function of the 
aircraft provides OAM agents the ability to continue investigations 
seamlessly into the interior of the United States, landing at small 
remote airports to interdict suspected air smugglers. OAM's Tethered 
Aerostat Radar System (TARS)\10\ is an effective surveillance asset 
providing radar detection and monitoring of low-altitude aircraft and 
surface vessels along the U.S.-Mexico border, the Florida Straits, and 
a portion of the Caribbean. With eight aerostat sites--six along the 
Southwest Border, one in the Florida Keys, and one in Puerto Rico--the 
TARS elevated sensor mitigates the effect of the curvature of the earth 
and terrain-masking limitations associated with ground-based radars, 
greatly increasing long-range radar detection capabilities. The eight 
TARS sites represent approximately 2 percent of the total radars 
integrated by OAM, yet they account for over 50 percent of all suspect 
target detections.
---------------------------------------------------------------------------
    \10\ CBP assumed responsibility of TARS from the U.S. Air Force in 
2013, but the aerostat surveillance system had been used by the 
Department of Defense since 1978.
---------------------------------------------------------------------------
    Perhaps the most important advancements come in the area of data 
integration and exploitation. Downlink technology, paired with the 
BigPipe system, allows OAM to provide video feed and situational 
awareness in real-time. In addition, the Minotaur mission integration 
system will allow multiple aircraft and vessels to share networked 
information, providing a never-before-seen level of air, land, and sea 
domain awareness.
    A vital component of DHS's domain awareness capabilities, the AMOC 
integrates multiple sensor technologies and sources of information to 
provide comprehensive domain awareness in support of CBP's border 
security mission. Utilizing extensive law enforcement and intelligence 
databases and communication networks, AMOC's operational system, the 
Air and Marine Operations Surveillance System (AMOSS), provides a 
single display that is capable of processing up to 700 individual 
sensor feeds and tracking over 50,000 individual targets 
simultaneously.
    AMOC coordinates with the Department of Defense (DoD), Federal 
Aviation Administration (FAA), the North American Aerospace Defense 
Command (NORAD), and international law enforcement partners in the 
governments of Mexico (GoM), Canada, and the Bahamas, to detect, 
identify, track, and support interdiction of suspect aviation and 
maritime activity in the approaches to U.S. borders, at the borders, 
and within the interior of the United States. This relationship, 
enhanced through the deployment of shared surveillance technology has 
allowed GoM to focus aviation and maritime enforcement efforts to 
better combat transnational criminal organization (TCO) operations in 
Northern Mexico and the contiguous U.S./Mexico border. For example, 
this past January, officers working at the AMOC detected a suspicious 
aircraft travelling north towards the United States. AMOC subsequently 
alerted GoM, via the AMOSS, of the activity, and both the Mexican 
Federal Police (PF) and Air Force (SEDENA) responded to investigate. 
The abandoned aircraft was located by Mexican officials a short time 
later, where 27 bags containing approximately 389 kilos 
methamphetamine, 79 kilos of cocaine, 79 kilos of white heroin, and 1.5 
kilos of black tar heroin were discovered and seized.
                        operational coordination
    Secretary Johnson's Unity of Effort initiative has put in place new 
and strengthened management processes to enable more effective DHS 
component operations. In addition, DHS-wide border and maritime 
security activities are being strategically guided by the new Southern 
Border and Approaches Campaign. Aimed at leveraging the range of unique 
Department roles, responsibilities, and capabilities, the Campaign 
enhances our operational approach to working together in a more unified 
way to address comprehensive threat environments. OAM has been 
extensively involved in the planning and development of all Joint Task 
Forces, particularly Joint Task Force--East (JTF-E), where OAM holds 
the Deputy Director position. Working closely with the USCG, ICE and 
others, we have played a key role in developing the Concept of 
Operations, the DHS Force Management plan and led the critical Mission 
Analysis planning efforts, which are all vital to meet the objectives 
outlined in the SBACP. OAM will continue to invest in and fully support 
the Joint Task Forces and looks forward to playing a key role in the 
unity of effort outlined by the Secretary in the SBACP.
    In 2011, the CBP commissioner, the USCG commandant and ICE 
assistant secretary signed the cross-component Maritime Operations 
Coordination (MOC) plan. The plan addresses the unique nature of the 
maritime environment and sets forth a layered, DHS-wide approach to 
homeland security issues within the maritime domain, ensuring 
integrated planning, information sharing, and increased response 
capability in each area of responsibility. In accordance with the MOC 
plan, OAM has been a key stakeholder in the implementation of the 
Regional Coordinating Mechanism (RECOM). Through this mechanism, OAM 
coordinates maritime operational activities through integrated 
planning, information sharing, and intelligence integration.
    OAM agents participate in ICE HSI-led BEST task forces across the 
Nation. This practice has multiple benefits. OAM agents provide 
maritime law enforcement expertise and ready access to OAM assets and 
capabilities. In turn, information shared through the BEST refines OAM 
operations and enables more targeted enforcement. OAM recently became a 
member of the BEST in San Juan, Puerto Rico. Working in conjunction 
with the San Juan BEST, OAM operations have yielded 24 arrests, 1,453 
pounds of narcotics, and $948,953 in currency over the current fiscal 
year.
    CBP OAM is the largest aviation contributor to the Joint 
Interagency Task Force South (JIATF-S), and is an integral part to 
their aviation capability and success to counter illicit trafficking 
within the maritime environment. P-3s patrol in a 42-million-square-
mile area that includes more than 41 nations, the Pacific and Atlantic 
Oceans, Gulf of Mexico, Caribbean Sea, and maritime approaches to the 
United States.
                      joint technology development
    OAM has identified Domain Awareness as a core competency and an 
essential element of a secure border. To that end, we will fully-
network our fleet and centers to share critical information in real 
time. We are pursuing that vision through joint efforts with 
technological partners.
    OAM is engaged with the USCG and DoD to identify and deploy 
technologies that expand overall maritime domain awareness and 
integrates information and sensor data throughout DoD and DHS. AMOC has 
begun to integrate data from airborne DOD assets and seeks to expand 
further into the maritime domain. With the support of DHS S&T and the 
USCG Research and Development Center, prototype technologies such as 
the Integrated Maritime Domain Enterprise have been deployed to the 
AMOC, USCG Sectors San Diego and Los Angeles/Long Beach, and are 
currently under evaluation. This network is being developed to manage 
and coherently integrate maritime sensors and data sources, such as 
Minotaur and the Coastal Surveillance System, into a user-defined 
operating picture, which can be then shared between stakeholders.
    OAM works closely with the Science & Technology Directorate (S&T) 
to identify and develop technology to improve our maritime surveillance 
and detection capabilities, including low-flying aircraft detection and 
tracking systems and data integration/data fusion capabilities. 
Currently under development is Coalition Tactical Awareness and 
Response (CTAR), a space-based system which can be used tactically 
against maritime threats. OAM is also working with the Domestic Nuclear 
Detection Office (DNDO) to develop and field radiological and nuclear 
(R/N) detection and nuclear forensics systems. For example, DNDO and 
OAM are collaborating in the development of technology to detect R/N 
threats aboard small vessels.
                         indicators of success
    OAM efforts have resulted in the seizure of significant quantities 
of contraband, and disrupted considerable illicit activity before it 
reaches our shores.
    In fiscal year 2014, OAM conducted 90,739 flight hours and 42,859 
underway hours, resulting in the arrest of 4,725 suspects, the 
apprehension of more than 79,672 illegal migrants, the seizure of 763 
weapons, $147,805,097 in currency, and the interdiction of more than 
1,155,815 pounds of illegal drugs, including 155,143 pounds of cocaine.
    OAM recognizes the need for relevant, verifiable performance 
measures that point towards outcomes as well as output, and has 
initiated an effort to develop them. This is a new process for us. We 
have engaged a Federally-funded research and development center to 
assist in developing metrics particular to domain awareness. We plan to 
refine a methodology for developing such measures, and apply it to 
operations across our organization.
                               conclusion
    Chairman Miller, Ranking Member Vela, and Members of the 
subcommittee, thank you for this opportunity to testify today. OAM is a 
critical component of CBP's border security mission. Our highly-trained 
agents, together with our authorities, specialized assets, and tactics 
comprise a well-rounded, experienced, and established law enforcement 
organization, fully engaged in protecting the United States' maritime 
borders from threats to the homeland.
    I look forward to answering any questions you may have at this 
time.

    Mrs. Miller. Thank you very much, General.
    The Chair now recognizes Mr. Roth for his testimony as 
well.

STATEMENT OF JOHN ROTH, INSPECTOR GENERAL, OFFICE OF INSPECTOR 
         GENERAL, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Thank you for inviting me here today to discuss 
our work at the U.S. Customs and Border Protections Office of 
Air and Marine. We have conducted a number of audits which I 
believe illustrate several persistent challenges facing the 
Department of Homeland Security. Specifically, DHS components 
do not engage in the kinds of basic management practices, such 
as analyzing mission needs and deciding best how to meet those 
needs before completing an acquisition that would better ensure 
the components are able to carry out their missions 
effectively.
    Second, many complicated and expensive programs lack 
performance measures, which are vital in ensuring the 
effectiveness of those programs and operations.
    Lastly, many programs fail to capitalize on efficiencies by 
integrating their efforts with other DHS components, thus 
hindering the Department's mission to achieve unity of effort.
    CBP's unmanned aircraft program is an example of the 
challenges the Department faces. In December 2014, we published 
an audit report regarding the effectiveness and the cost of the 
unmanned aircraft program. We found that the aircraft did not 
fly as much as CBP had anticipated. The unmanned aircraft 
logged a total of only about 5,100 hours in fiscal 2013. That 
means each of the 10 aircraft available to CBP flew an average 
of only 1.4 hours per day.
    According to CBP, the aircraft do not fly more primarily 
because of budget constraints, which prevented them from 
obtaining the personnel, spare parts, and other infrastructure 
for operations and maintenance necessary for more flight hours. 
Other contributing factors included flight restrictions and 
weather-related cancellations.
    Although the program is about 10 years old, CBP has never 
established formal metrics, which greatly impedes any effort to 
determine whether the program has been successful. This lack of 
relevant metrics is a barrier to fully understanding whether 
the taxpayers' investment is a good one.
    Our report did note that according to CBP's own figures, 
the program was responsible for less than 1 percent of all 
apprehensions in the sector in which it operated, which is only 
about 170 miles of the 2,000-mile Southwest Border.
    Additionally, at the beginning of the program, CBP expected 
unmanned aircraft to reduce border surveillance costs by 
between 25 and 50 percent per mile. However, CBP does not 
currently track this metric, so we have no way of evaluating 
whether they have met that. Additionally, by our measures, CBP 
was not recognizing all the costs of operating the program.
    To determine the full costs of the unmanned aircraft 
program, we took an approach that is standard within Government 
and private industry, managerial cost accounting, which really 
requires answering a very simple question: How much does it 
cost to do something? What is the total cost of ownership of a 
specific program?
    We estimated that in fiscal 2013, it cost at least $62.5 
million to operate the program, or over $12,000 per flight 
hour. CBP's estimates of the costs of operating the aircraft 
were significantly lower, because it did not include the full 
maintenance costs, depreciation, operation support, base 
personnel, payment of rented air bases, and the cost of the 
personnel to operate the program, as well as other costs.
    The results for the 2015 audit were very similar to an 
audit we did on the program 3 years before that. Given the 
costs of the program as well as its current lack of performance 
measures, we believe that CBP's decision not to expand the 
program is a wise one.
    Several other audit reports that we have conducted have 
highlighted the need for renewed focus on management 
fundamentals. For example, in January 2015, we issued a 
management advisory describing the deficiencies in OAM's 
management of its national aviation maintenance contract. 
Unfortunately, we were unable to complete a detailed review of 
the contract costs. This is a series of contracts worth in 
excess of $930 million. We were unable to complete a detailed 
review of the contract costs because of inconsistent and 
unreliable data. This unreliable data precluded further 
analysis. In essence, the state of the record-keeping within 
CBP and its contractors made the program unauditable.
    Likewise, in 2013, we reported that CBP was unwilling to 
coordinate with the Coast Guard to upgrade its H-60 helicopters 
even though both components were converting the same 
helicopters. As a result, CBP may have missed an opportunity to 
save significant taxpayer money.
    Chairman Miller, this concludes my prepared statement. I 
welcome any questions that you or other Members of the 
committee may have.
    [The prepared statement of Mr. Roth follows:]
                    Prepared Statement of John Roth
                             July 14, 2015
    Chairman Miller, Ranking Member Vela, and Members of the 
subcommittee, thank you for inviting me here today to discuss our work 
at U.S. Customs and Border Protection's (CBP) Office of Air and Marine 
(OAM).
    In my testimony today, I will focus on our recent report on CBP's 
unmanned aircraft systems, as well as other reports, which I believe 
illustrate several persistent issues facing the Department of Homeland 
Security (DHS). Specifically:
  <bullet> DHS components often do not engage in the kinds of basic 
        management practices--such as analyzing mission needs and 
        deciding how best to meet those needs before completing an 
        acquisition--that would better ensure the components are able 
        to carry out their missions effectively.
  <bullet> Many complicated and expensive programs lack performance 
        measures, which are vital to ensuring the effectiveness of 
        those programs and operations. Components also continue to use 
        poor business practices that often result in less than ideal 
        stewardship of taxpayer dollars.
  <bullet> Finally, many programs fail to capitalize on efficiencies 
        that may be gained by integrating their efforts with those of 
        other components, thus hindering the Department's mission to 
        achieve a unity of effort.
                     unmanned aircraft system (uas)
    From fiscal years 2005 to 2013, CBP invested about $360 million on 
its Unmanned Aircraft System (i.e., ``drone'' program), which includes 
Predator B aircraft, related equipment such as ground control stations, 
as well as personnel, maintenance, and support. In 2014, we conducted 
an audit to determine the effectiveness and cost of the UAS program.
    Unfortunately, despite its 8-year effort and significant investment 
of taxpayer dollars, CBP could not demonstrate how much the program has 
improved border security, largely because the program lacks performance 
measures and CBP was unaware of the true cost of the program.
Anticipated usage of the aircraft
    When CBP established its UAS Concept of Operations in 2010, it 
expected that by fiscal year 2013, it would be flying four 16-hour 
unmanned aircraft patrols every day of the year, or 23,296 total flight 
hours. However, the unmanned aircraft logged a combined total of 5,102 
flight hours, or about 80 percent less than what OAM anticipated. 
According to OAM, the aircraft did not fly more primarily because of 
budget constraints, which prevented OAM from obtaining the personnel, 
spare parts and other infrastructure for operations, and maintenance 
necessary for more flight hours. Other contributing factors included 
flight restrictions and weather-related cancellations.
Performance metrics
    Although the UAS program is about 10 years old, OAM has never 
established formal metrics, which greatly impedes any effort to 
determine whether the program has been successful. OAM's failure to 
establish relevant metrics is a barrier to fully understanding whether 
the taxpayers' investment is a good one.
    When OAM stood up the program, however, it did establish 
performance expectations in order to justify the cost of the program. 
These expectations are contained within the 2007 UAS Mission Need 
Statement, Concept of Operations, and Acquisition Plan. Government 
auditing standards permit us to compare such expectations against 
current performance.\1\ The performance expectations included:
---------------------------------------------------------------------------
    \1\ Government Auditing Standards, 2011 Revision, section 6.37.
---------------------------------------------------------------------------
  <bullet> Increased apprehensions.--CBP anticipated that UAS support 
        would increase apprehensions. For example, according to the UAS 
        Mission Need Statement, ``This investment expects to improve 
        the efficiency, effectiveness, and safety of Border Patrol 
        agents . . . by reducing response to false motion sensor 
        alerts, increasing the number of apprehensions of illegal 
        border crossings, and raising the agent's situational awareness 
        when moving towards and making arrests.''
    Although it is not possible to determine whether the specific use 
        of unmanned aircraft increased apprehensions of illegal border 
        crossers, we can compare the United States Border Patrol's 
        total number of reported apprehensions to the number of 
        apprehensions OAM attributed to the use of unmanned aircraft. 
        For example, in the Tucson and Rio Grande Valley Sectors, where 
        UAS operations were concentrated, the Border Patrol reported 
        275,392 apprehensions; yet, CBP attributed only 2,272 of those 
        apprehensions, or less than 1 percent, to the UAS program. 
        Moreover, according to Border Patrol Agents and intelligence 
        personnel we interviewed in Arizona, the Border Patrol probably 
        would have detected the same people using ground-based assets, 
        without the assistance of unmanned aircraft.
  <bullet> Reducing border surveillance costs.--According to the UAS 
        Mission Need Statement, OAM expected unmanned aircraft to 
        reduce border surveillance costs by 25 to 50 percent per mile. 
        However, because OAM does not track this metric, it cannot 
        demonstrate that the unmanned aircraft have reduced the cost of 
        border surveillance.
  <bullet> Responding to sensor alerts.--According to the UAS Mission 
        Need Statement, unmanned aircraft would improve the Border 
        Patrol's efficiency by responding to sensor alerts, allowing 
        the Border Patrol to determine whether any action was necessary 
        before sending an agent to the location. However, we identified 
        only six instances in fiscal year 2013 of unmanned aircraft 
        responding to ground sensor alerts.
  <bullet> Border coverage.--According to DHS' Annual Performance 
        Report, Fiscal Years 2012-2014, the UAS program expanded 
        unmanned aircraft coverage to the entire Southwest Border. 
        However, unmanned aircraft do not currently cover the entire 
        Southwest Border. The Federal Aviation Administration permits 
        OAM to fly its unmanned aircraft over the Southwest Border from 
        California to the Texas Gulf Coast. Yet, of the 1,993-mile 
        Southwest Border, UAS operations focused on only about 100 
        miles of the Arizona border and 70 miles of the Texas border.
True cost of the program
    By our measure, CBP was not recognizing all operating costs. To 
determine the full cost of the UAS program, we took an approach that is 
standard within the Government and private industry: Managerial cost 
accounting. This requires answering a simple question--how much does it 
cost to do something? In the case of unmanned aircraft, we wanted to 
know how much it cost to own, operate, and maintain the aircraft and 
sensors. Specifically, how much did it cost DHS, and the taxpayer, to 
provide the capabilities of the Predator B unmanned aircraft?
    We estimate that, in fiscal year 2013, it cost at least $62.5 
million to operate the unmanned aircraft system program, or about 
$12,255 per flight hour. CBP's estimates of the cost of operating the 
aircraft were significantly lower because it did not include:
  <bullet> Full maintenance costs.--Our estimate, based on the amount 
        stated in the contract, was that all of the maintenance and 
        support of the aircraft would cost more than $24 million. OAM's 
        calculation of $9.4 million did not include the costs paid to 
        the contractor when mechanics were not performing maintenance 
        activities.
  <bullet> Depreciation.--The unmanned aircraft have a 20-year life 
        span, and based on ordinary straight-line depreciation, cost 
        about $7.6 million per year. OAM's lack of accounting for 
        depreciation is inconsistent with all generally accepted 
        accounting practices, both in the Government and the private 
        sector.
  <bullet> Operations support.--OAM paid a contractor for program 
        management and flight operations support services, including 
        flight operations support at four airbases and an operations 
        center in California, as well as incidental materials, travel, 
        training, and data deliverables. It did not include this in its 
        total cost calculation.
  <bullet> Base overhead.--OAM houses the unmanned aircraft at bases 
        around the country, and pays for services such as rent and 
        utilities, but does not recognize these services as costs of 
        doing business.
  <bullet> OAM personnel.--OAM does not count the cost of the pilot or 
        support personnel in its calculations--more than $11 million 
        per year--because they are funded through a separate 
        appropriation. However, according to OMB Circular A-126 and 
        General Services Administration requirements, a proper 
        accounting for costs must include these costs, which is why we 
        included them in our report. Specifically, OMB and GSA require 
        that agencies accumulate operations and ownership costs of 
        aircraft programs, as well as account for the cost of 
        acquiring, operating, and supporting their aircraft. In 
        addition, according to the Federal Accounting Standards 
        Advisory Board, ``the full cost of a program's output is the 
        total amount of resources used to produce the output . . . 
        regardless of the funding sources.''
    Given the cost of the UAS program, as well as its current lack of 
performance measures, we believe CBP's decision not to expand the 
program at this time is a wise one. We are concerned about the 
equivocal nature of their decision, however. Recent OAM documents 
regarding the UAS program state that there is a $34 million shortfall 
in funding and that OAM does not support program expansion without 
additional funding.
    As we said in our report, OAM's comments indicate that if it did 
receive additional funding, it would support program expansion. We 
recognize that ``at this time'' or ``currently'' OAM does not plan to 
expand the program. To be clear, our recommendation addresses OAM's 
long-term plan and requires an independent study to determine whether 
the $443 million associated with the long-term plan could be put to 
better use by investing in the current program or in alternatives. We 
would encourage CBP to explore investing in alternatives, such as 
manned aircraft and ground surveillance assets.
    We are pleased to report that, as a result of our audit, CBP agreed 
to establish program goals and performance measures, and the Department 
agreed to conduct an independent study before acquiring more unmanned 
aircraft, as well as establish a DHS-wide policy for accumulating all 
program costs. The Department recently informed us that it expects to 
complete its study to determine whether additional unmanned aircraft 
are needed and justified by December 31, 2015. CBP is also in the 
process of revising the UAS Concept of Operations to ensure it contains 
attainable goals and verifiable performance measures. Additionally, the 
Department has established a charter for the Flight Hour Program 
Working Group, which is committed to transparent cost accounting for 
all DHS aviation programs. We believe the Department, specifically, the 
Office of the Chief Readiness Support Officer, was very responsive to 
the report and is especially committed to addressing two of our 
recommendations. (U.S. Customs and Border Protection's Unmanned 
Aircraft System Program Does Not Achieve Intended Results or Recognize 
All Costs of Operations, OIG-15-17)
    The results of our 2015 UAS report--that CBP logged only about 20 
percent of its anticipated flight hours, could not demonstrate 
performance, and had not accounted for all of its costs--were 
predictable. Three years earlier, we assessed the drone program and 
found that CBP's inadequate planning and project management resulted in 
performance shortfalls. Specifically, in our May 2012 report, CBP's Use 
of Unmanned Aircraft Systems in the Nation's Border Security, we 
reported:
  <bullet> CBP had not achieved its anticipated number of flight hours. 
        CBP desired 13,328 flight hours; however, staffing and 
        equipment shortages, coupled with FAA and other restrictions, 
        limited actual flight hours to 3,909;
  <bullet> CBP's lack of a specific operations and maintenance budget 
        request for the UAS program resulted in a $25 million budget 
        shortfall. From fiscal years 2006 through 2011, CBP reported it 
        spent $55.3 million for operations and maintenance, but it had 
        not made a specific operations and maintenance budget request 
        for the UAS program. As a result, CBP needed to transfer about 
        $25 million from other programs in fiscal year 2010 to address 
        the shortfall; and
  <bullet> CBP had not adequately planned to fund unmanned aircraft-
        related equipment, such as ground control stations, cameras, 
        and navigation systems, which resulted in insufficient 
        equipment to perform UAS missions.
                            other audit work
    Several other audit reports have highlighted the need for a renewed 
focus on management fundamentals. Congress and the public must be 
confident that CBP's financial practices and operations minimize 
inefficient and wasteful spending, and that it is making informed 
decisions to manage its programs and implement its policies.
Insufficient and unreliable data prevents analysis and accountability
    Sound financial practices and related management operations are 
critical to achieving the Department's mission and to providing 
reliable, timely information that supports management decision making. 
However, CBP has not consistently documented the analysis justifying 
programs or conducted thorough needs assessments before moving forward 
with acquisitions. In addition, it does not always collect the right 
information and the data it does collect is too often inconsistent and 
unreliable.
    For example, in January 2015, we issued a management advisory 
describing deficiencies in OAM's management of its national aviation 
maintenance contract. In 2009, CBP awarded a $938 million contract to 
Defense Support Services, LLC to maintain about 265 aircraft to fly 
approximately 100,000 hours per year. Even though the number of CBP 
aircraft maintained, annual flight hours, and the average age of the 
aircraft fleet decreased from fiscal years 2010 through 2013, contract 
costs increased an average of nearly 9 percent per year.
    Unfortunately, we were unable to complete a detailed review of the 
contract costs because of inconsistent and unreliable data. 
Specifically, we could not verify whether the contractor correctly 
charged CBP for the maintenance labor hours it completed. The 
contractor and CBP used two separate data systems for recording 
maintenance labor hours. We tried to compare CBP's labor hour data to 
labor hour data provided by the contractor, but the data was 
inconsistent and did not match. This unreliable data precluded further 
analysis. In essence, the state of the recordkeeping made the program 
unauditable. CBP told us that it planned to improve verification and 
tracking of maintenance labor hours. (U.S. Customs and Border 
Protection's Management of National Aviation Maintenance Activities, 
Management Advisory)
Unity of effort and leveraging other Department programs
    Likewise, we have observed that, despite similar responsibilities 
and challenges, DHS components are not always willing to work together 
to realize economies of scale, which hinders the Department's overall 
cost-effectiveness and efficiency. For example, in 2013, we reported 
that CBP was unwilling to coordinate with the Coast Guard to upgrade 
its H-60 helicopters, even though both components were converting the 
same helicopters. In March 2010, DHS' Acquisition Review Board directed 
the Coast Guard to collaborate with CBP and present a joint review on 
possible helicopter program synergies. The Coast Guard hosted CBP 
officials at its Aviation Logistics Center, but according to Coast 
Guard and CBP officials, a senior CBP executive canceled any reciprocal 
visits by Coast Guard officials and instructed CBP staff not to have 
any further contact with Coast Guard H-60 personnel. Without CBP's 
cooperation, the Coast Guard could not complete the joint review, and 
neither the Office of Program Accountability and Risk Management nor 
the Acquisition Review Board followed up.
    As a result, CBP may have missed an opportunity to save significant 
taxpayer money. In fact, we determined that DHS could have saved about 
$126 million if the two components had successfully coordinated the 
conversion of CBP's H-60 helicopters at the Coast Guard's Aviation 
Logistics Center. Instead, CBP chose to continue its conversion program 
with the Army. When we contrasted the cost and number of helicopters 
the Army converted and modified for CBP with Coast Guard's efforts, we 
found that the Coast Guard was able to convert many more helicopters at 
less cost and in a shorter period of time:
  <bullet> Between September 2008 and July 2012, the Army converted and 
        modified two CBP H-60s at an average cost of $22.3 million 
        each; the conversions took about 3.5 years.
  <bullet> In contrast, between January 2007 and July 2012, the Coast 
        Guard converted 27 of its H-60s; the last 7 conversions cost 
        about $5.3 million each and took an average of less than a year 
        to complete. At that time, we estimated that each future CBP 
        conversion would cost about $18.3 million and would take about 
        1.7 years to complete.
    A subsequent H-60 Business Case Analysis by DHS' Office of Chief 
Readiness Support Officer, the Aviation Governing Board, the Coast 
Guard, and CBP confirmed the cost savings of having the Coast Guard 
convert the helicopters but it was too late.\2\ CBP would not have 
additional funds for its H-60 efforts until fiscal year 2017 and, based 
on the condition of its H-60 helicopters, it had to remove many of them 
from operations. Ultimately, the program simply ran out of money 
because of mismanagement.
---------------------------------------------------------------------------
    \2\ According to the initial DHS H-60 Helicopter Business Case 
Analysis (February 28, 2014), CBP estimated the recapitalization costs 
at $25.6 million per aircraft (including modification requirements). 
This would have equated to a total cost of $256 million for the 
remaining 10 CBP H-60As. After further discussions with DHS, we 
calculated that DHS could save as much as $132 million to convert and 
modify the remaining 10 CBP H-60s if done at the Coast Guard's Aviation 
Logistics Center.
---------------------------------------------------------------------------
    In response to one of our other recommendations, CBP is 
coordinating with the U.S. Army to trade its older H-60As for newer H-
60Ls that the Army is decommissioning. This project is on-going. All 
aircraft acquisitions and other significant investments must now be 
submitted through the Department's Joint Requirements Council, which 
was established to make better-informed investment decisions, 
particularly as it relates to supporting a unified Department 
acquisition strategy. One of the Council's emphasis areas is to ensure 
better integration of aviation assets. We hope that this process, which 
was created only a year ago, will assist in avoiding future acquisition 
mismanagement. (DHS's H-60 Helicopter Programs (Revised), OIG-13-89)
    CBP's acquisition of an aviation management tracking system 
provides another example of missed opportunities to improve performance 
and cut program costs. In August 2012, we reported that despite CBP's 
and the Coast Guard's joint strategy to unify their aviation logistics 
and maintenance systems, CBP planned to purchase a new aviation 
management tracking system that would not be coordinated with the Coast 
Guard's already operational system. We concluded that if CBP 
transitioned to the Coast Guard's system instead, it would improve 
tracking of aviation management and cost less. CBP did not concur with 
our recommendations, but the former acting CBP Commissioner directed 
OAM to stop the acquisition of the new system.
    Subsequently, OAM directed the development of a new web-based 
program under the current National Aviation Maintenance contract, which 
will allow it to continue to use its existing aviation maintenance 
tracking system. We closed this recommendation because the web-based 
program, which is expected in March 2016, is not considered a new 
computer system. Nevertheless, we continue to believe that CBP should 
migrate to the Coast Guard's aviation management tracking system rather 
than continuing with their current plan, which should only be 
considered a stopgap measure. (CBP Acquisition of Aviation Management 
Tracking System (Revised), OIG-12-104)
    In its 2012 report on DHS's Air and Marine Assets, the Government 
Accountability Office (GAO) reported that DHS could improve certain 
types of coordination, such as co-locating proximate OAM and Coast 
Guard units, to better leverage existing resources, eliminate 
unnecessary duplication, and enhance efficiencies. GAO also reported 
that OAM had not documented its analyses to support its resource mix 
and placement decisions for its air and marine assets across all 
locations. (Border Security: Opportunities Exist to Ensure More 
Effective Use of DHS's Air and Marine Assets, GAO-12-518, March 2012)
                               conclusion
    The Department, CBP, and OAM have taken steps to implement our 
recommendations, yet OAM's basic management practices continue to fall 
short. Sound planning and strategies for efficiently acquiring, using, 
and maintaining aviation assets that operate at full capacity, for 
example, would go a long way toward improving overall operations. 
Additionally, OAM should take advantage of every opportunity to 
coordinate with the Coast Guard to eliminate duplication and leverage 
assets. Finally, better performance measures and calculation of costs 
would help enhance security, as well as safeguard taxpayer dollars.
    Chairman Miller, this concludes my prepared statement. I welcome 
any questions you or other Members of the subcommittee may have.
          appendix.--oig reports referenced in this testimony
U.S. Customs and Border Protection's Unmanned Aircraft System Program 
Does Not Achieve Intended Results or Recognize All Costs of Operations, 
OIG-15-17, December 2014
U.S. Customs and Border Protection's Management of National Aviation 
Maintenance Activities, CBP Management Advisory, January 2015
DHS' H-60 Helicopter Programs (Revised), OIG-13-89, May 2013
CBP's Use of Unmanned Aircraft Systems in the Nation's Border Security, 
OIG-12-85, May 2012
CBP Acquisition of Aviation Management Tracking System (Revised), OIG-
12-104, August 2012

    Mrs. Miller. Thank you.
    General, I am sure you want to respond to that. I had some 
other questions, but I think I will just start right out after 
listening to Mr. Roth talk about some of the findings from 
the--let's start with the UAV program.
    Honestly, I can remember about 10 or 11 years ago my first 
trip to the Southern Border when I came to Congress, and there 
weren't really UAVs being utilized at that time, and how 
important everybody determined that it would be to use UAVs as 
a critical component for border security, surveillance, et 
cetera. Then the last time I had been down to the Southern 
Border again was just recently, well, this year, and we looked 
at a number of the UAVs and the drones, et cetera, and their 
effectiveness and et cetera, et cetera.
    But that being said, what is your response, I guess, to 
this saying that drones and the resources that you have there 
only being used 1 hour a day, or 1-point-whatever hours a day 
out of a 24-hour day, and----
    Mr. Alles. I would address the averaging across 365 days a 
year for an aircraft fleet when you have limitations in terms 
of how many hours you can operate on a maintenance contract, 
how many employees you have, I think, is not a great comparison 
of the program itself.
    The program has delivered good returns for us year over 
year. I will just mention the year that they did the audit for 
us, as I have provided these numbers to the staff and also to 
the Senate staff. The aircraft flew 5,100 flight hours, as Mr. 
Roth indicates, that year. I would acknowledge the airplane is 
not flying as many hours as it wanted to. It is never going to 
fly the 23,000 hours that they put in the report. In fact, it 
would be irresponsible of me to actually try to do that, as I 
would wear the airframes out in probably 3 to 5 years. That is 
about 2,500 hours for airframe per year with the current number 
of airplanes I am operating, which is 8.
    But in that year he talks about, we had substantial 
contraband seizures in the amount of $341 million of contraband 
at street value. That as a return on investment is $66,000 per 
flight hour that the UAV flew. That is a pretty good return on 
investment. Using his numbers of $12,000 per hour, that gave me 
an ROI in that year of 444 percent. This year----
    Mrs. Miller. Not to interrupt, but what was it--did you say 
that it was only 1 percent of the interdictions that were done 
by UAVs?
    Mr. Alles. Well, he said 1 percent of the apprehensions, 
which is a true statement, but it also detected 18,000 people 
moving across the border in that same year, which is 15 percent 
of the apprehensions made in the Tucson sector. So, I mean, it 
depends on how you want to work the numbers.
    The fact is for a platform using the VADER system that was 
borrowed from the Army that year, we had one system borrowed 
from the Army that was able to fly a limited amount of hours 
per day, no more than 8, it got 18,000 detections of people 
walking across the border. Those were used to bring Border 
Patrol agents into apprehensions, I think with substantial 
results.
    So I would say we have to be careful about characterizing 
the platform, not recognizing how much domain awareness it 
actually provides us overall. It allows us to see the border in 
ways we could never see it before with the systems on-board the 
aircraft, and actually recognize where we don't need technology 
and personnel, because there is nothing occurring in certain 
sections of the border.
    So it helps us risk reduce and provide an efficiency across 
CBP and the Department, because I don't waste money in 
locations that I don't need to put cameras and Border Patrol 
agents and aircraft, because I can look and see if I have 
movement across those borders. So that would be how I would 
respond to it overall, ma'am.
    Mrs. Miller. I appreciate that.
    Mr. Roth.
    Mr. Roth. Thank you. A couple things just to make sure we 
actually understand. The 23,000 hours was not the number that 
we came up with. That is what CBP Air and Marine in their 
concept of operations said. They said that they wanted to have 
four patrols up 16 hours a day 365 days a year. That is the 
calculation we use. We are not in the business of determining 
what metrics CBP Air and Marine need to use. We simply took the 
metrics that they had at the beginning of the program and sort 
of juxtaposed that against what is currently occurring.
    Some of the metrics that have been mentioned here today, I 
think, are probably pretty good ones, but to have a formal 
sort-of metric program, you need to sort-of publish those and 
you need to sort-of state what those metrics are, and more 
importantly, you need to compare sort-of the metrics for, for 
example, the unmanned systems against some of your other 
aircraft.
    One of the things that we would be advocating is, No. 1, 
understand the true cost of ownership, which I know is a 
different issue that we probably will talk about, but No. 2, 
compare different kinds of aircraft. So is a drone, an unmanned 
vehicle, more cost-effective than, say, a long-range fixed-wing 
aircraft? We don't have the answer to that question, because 
that calculation has never been done.
    So what we advocate in all these is to have transparent 
sort-of performance measures put upfront, not in response to an 
audit or any other reason, but to put it upfront so we 
understand, you know, when you talk about bang for the buck, 
you need to talk about what the bucks are, so you have to have 
accurate accounting, and then two, the bang, in other words, 
what is it that you are trying to do.
    But I will have to say that the performance measures, for 
example, of seized narcotics, I mean, that is one of those 
things that we can certainly talk about, either using the 
retail value of those seized narcotics might not be appropriate 
or it may, depending on sort-of how they decide to sort-of 
judge effectiveness. But what we did was we simply took what it 
is that they thought they were going to do and compare it 
against current performance.
    Mrs. Miller. You know, just following up on that, if I 
could, and I know the Ranking Member--do you have to go right 
now?
    Mr. Vela. I will wait.
    Mrs. Miller. Okay. All right. Good. I know you got to----
    Mr. Vela. I don't want to leave you alone.
    Mrs. Miller. All right.
    In regards to the performance metrics, and I guess I would 
just like you to talk a little bit about that, General, 
because, as you know, this subcommittee, our full committee 
actually has passed a border security bill, which unfortunately 
we have not gotten floor time on yet, but I am hopeful that we 
will do so sometime during this calendar year, and a very big 
part of that is accountability, is using metrics so that we can 
assure, obviously not just the Congress, but the American 
people that we have operational control of the various sectors 
of border around our Nation.
    I think everyone that is involved in the border security 
business is going to be--we are going to be looking at everyone 
to assist us with making sure that we have those kinds of 
metrics.
    So as Mr. Roth is pointing out here, what is your thought 
about performance metrics and what you might be able to put out 
there for us?
    Mr. Alles. So I think on the metrics side, that is an area 
that we have struggled in overall. The Border Patrol is working 
on new metrics for their organization in terms of how they 
characterize the border. We are working on metrics, which have 
never been done before, on how you characterize--how do you 
characterize air support? So, you know, how do you characterize 
the effectiveness of an aircraft for surveillances, how do you 
put a dollar value on it, how do you do that? We don't have 
good answers for that.
    So we currently are engaging one of these Federally-funded 
research and development organizations to help us try to 
develop air metrics specifically for our organization, which 
would hopefully address part of the issues that Mr. Roth is 
bringing up. I think also we can work better with the IG in 
terms of staff to staff on trying to figure out what these 
metrics are.
    I would acknowledge that ConOps, you know, lays out a very 
ambitious and unattainable level of attainment for the UAV, 
given the frictions of operating that. So I don't want to--I 
want to be careful here to not say that, you know, that is not 
in there, because that was in there, but, you know, it is an 
unrealistic value.
    But I think on the metrics, I think we have to acknowledge 
that we need to do considerable work on that. For me, my part 
of it is the air piece of this, how I characterize the use of 
my air assets and how I value those air assets, you know, 
across CBP, and that is what we are working on currently.
    Mrs. Miller. Right. Obviously as you do those metrics, 
flying hours are utilizing the resource is going to be an 
important part of that metrics as well.
    Mr. Alles. Yes, ma'am. We understand what we get. We 
understand what the apprehensions are, we understand what we 
see with the aircraft, we understand what the seizures are in 
terms of cash, drugs, arrests. All those data I have, you know, 
and we can look at that year over year and see how it has gone 
up, gone down, and up slightly, and then down again this year. 
All that information we have. Beyond that, in terms of the 
information we don't know, the unknown movements, that is our 
major struggle.
    Mrs. Miller. All right. Thank you very much.
    I would ask the Ranking Member to have his questions.
    Mr. Vela. Commissioner Alles--are we pronouncing that 
right?
    Mr. Alles. Yes. Yes, sir.
    Mr. Vela. Okay. What can you tell us about the incident in 
Laredo, and if you could elaborate on the commissioning of the 
two Blackhawks. I am curious, you know, do you think that is 
sufficient, and then how is all that working now in light of 
the episode?
    Mr. Alles. I am not sure I understood the Blackhawk part, 
sir.
    Mr. Vela. Well, after the helicopter incident, two 
Blackhawks were sent to Laredo, right?
    Mr. Alles. Yes, sir.
    Mr. Vela. I am just curious, I would like for you to assess 
how you think that is working and whether you think that is 
sufficient.
    Mr. Alles. So in that particular instance there, that was 
obviously a drug movement that was occurring across the Rio 
Grande, our helicopter had moved in basically on a call from 
the local police department that there was an event occurring 
and they were watching it. As they came in over the top of the 
smugglers, I think on the second trip they were fired at from 
the Mexican side of the border by a member that is kind of, I 
will call him a contractor, I hate to say it that way, but he 
basically contracts his services out to different cartels at 
different times.
    He fired at the aircraft, we think a number of rounds, 
probably 10 to 15 rounds, we have never recovered the weapon to 
this point, but he struck the aircraft twice. We do know that 
we were able to identify who he was. He has been apprehended at 
this time by the FBI, so we are confident about that.
    But one thing we did want to especially reinforce both on 
the investigative side and also on the appearances side is we 
want to make--we don't want to encourage cartel members to be 
firing at our aircraft. So part of that is making sure that we 
catch the cartel member and, if necessary, putting equipment 
down there that is more heavily reinforced.
    So a Blackhawk helicopter is obviously a military 
helicopter. It can be armored. It has a ballistic armor kit 
that goes on the aircraft. A recent Mexican helicopter, 
Blackhawk just was shot up, seven bullets hit it, and it flew 
just fine. So it is a much more survivable helicopter. We put 
it down there really to emphasize that, you know, we are 
serious about doing border security, we don't want our aircraft 
fired at from the Mexican side.
    So we are somewhat trying to send a message to the cartels 
that this is not a good thing to do. I think it is important 
for us to reinforce that for the protection of our own people 
that are operating down on the border.
    Mr. Vela. But were those two Blackhawks sent just to the 
Laredo area or were they sent down to patrol the entire region 
from----
    Mr. Alles. Primarily the Laredo area. They did do wider 
patrols, but primarily to the Laredo area where the shooting 
occurred.
    Mr. Vela. Are your personnel that are using helicopters 
elsewhere, I assume they are not as protected?
    Mr. Alles. I think if your question is--most of my 
helicopter fleet, light enforcement helicopters cannot be 
armored. The AS-350, the EC-120 do not have enough lifting 
capacity to put armor on those aircraft. They just won't 
operate. So the only aircraft I have that has that kind of 
capacity is the Blackhawk.
    Mr. Vela. When you----
    Mr. Alles. Now----
    Mr. Vela. I am sorry. When you say, ``armored,'' you mean 
defensively armored? Right?
    Mr. Alles. Right. Yes, sir. They can actually put armor--
there is an armor kit that actually goes on the Blackhawk 
helicopter. So the other ones cannot be armored. We 
traditionally have not had them fired at on the border. I mean, 
it is a very rare instance.
    Mr. Vela. Now, did I hear you say that the FBI captured 
him? He was captured in Mexico, though, right, by Mexican----
    Mr. Alles. Yeah. My understanding is they were working with 
Mexican authorities, obviously. I mean, they had to work with 
Mexican authorities in capturing him.
    Mr. Vela. Can you tell us where that is in the adjudicative 
process?
    Mr. Alles. I do not know, sir. I haven't heard anything. I 
have not gotten any updates on the investigation here since 
about a week ago.
    Mr. Vela. So just in general, can you tell us why it makes 
sense to keep the Office of Air and Marine as a distinct 
entity?
    Mr. Alles. Well, I think it allows the commissioner of CBP 
to basically enforce customs and immigration law in a holistic 
way across, you know, the United States. Without that, he 
would--you know, he would lack enforcement capability both on 
the air and the marine side to effectively discharge their 
responsibilities.
    I mean, really as you all are aware, it was a 9/11 creation 
that brought CBP into be a unified border agency. We are 
frequently visited by other countries to look at the model that 
was created really by the Congress in forming CBP, because that 
is not what they have typically in their countries where they 
have a holistic approach to both customs, immigration, and 
border protection all in one agency, all with one 
responsibility.
    So from that standpoint, if you start pulling sections out, 
I mean, it would leave the commissioner unable to really 
enforce the laws that he has been given responsibility for.
    Mr. Vela. How would you distinguish what you do from the 
Coast Guard?
    Mr. Alles. I think the main ways I would distinguish us 
from the Coast Guard is really in terms of the types of 
organizations we are. Now, like in many situations, I mean, 
things look like they overlap. So you have the Navy operates 
obviously in the maritime, the Coast Guard operates in the 
maritime. There are areas where their missions look like--or 
where they look like they overlap. They both operate down in 
the transit zone. But we distinctly recognize that between the 
Navy and the Coast Guard, they have distinct mission sets.
    So the Coast Guard really is a military--is a military 
organization. It is primarily working on the high seas. It uses 
different equipment and different training from CBP, and it is 
not focused entirely in the areas that we are. So its mission 
set is different.
    CBP is a law enforcement organization. Each of my agents 
has on average 17 years of law enforcement experience. So that 
is the average throughout the agency. We work primarily not on 
the high seas; we work in U.S. customs water, so within 12 
miles of the coast, and we have specifically equipped ourselves 
to counter the threat that we are going after, which is 
basically your small boat traffic, not so much your commercial 
traffic, your go-fast type of vessels, which we have high-speed 
interceptors to actually interdict those.
    We work really in a law enforcement realm. So we are doing 
unmarked operations, we are doing plain clothes operations. We 
sometimes work with ICE in undercover operations to do law 
enforcement work. We are working on investigations. We are 
performing covert tracking in some cases, you know, via court 
permission. We will do forensics. We obtain and execute 
warrants. We are actually arresting U.S. citizens in a law 
enforcement function.
    So there is really a lot of differences between what the 
Coast Guard is doing and ours. I really don't so much want to 
speak to the Coast Guard, because I am not--you know, I am 
kind-of talking out of school when I am talking about their 
mission set, but as a law enforcement organization, we are 
structured entirely differently from the Coast Guard, not as a 
military organization, and our responsibilities and authorities 
are much different from that regard.
    Mr. Vela. Well, I look forward to speaking to you about 
this in more depth at a future date. I am going to have to ask 
both of you to excuse me, because I have got another hearing I 
have got to attend to.
    With that, I yield the balance of my time.
    Mrs. Miller. I thank the gentleman very much. I think I am 
going to pick up a little bit on his question.
    Pardon me?
    Oh, Mrs. Torres, excuse me. Would you like to take the seat 
here or----
    Mrs. Torres. Yes.
    Mrs. Miller. Actually, I will yield your time to ask your 
questions.
    Mrs. Torres. Thank you very much, Chairman Miller.
    Mr. Alles? Alles.
    Mr. Alles. Yes, ma'am.
    Mrs. Torres. Fiscal year 2014, the Department of Homeland 
Security appropriations bill provided the Office of Air and 
Marine with 55 additional positions. Can you tell me what the 
status of that is?
    Mr. Alles. So those are to our Air and Marine Operations 
Center, which is a key part of our domain awareness across the 
United States. It pulls in all of the FAA radar feeds, all the 
military radar feeds, all of our TARs radar feeds, and also 
coordinates all of our Air and Marine activity----
    Mrs. Torres. Out of Riverside, correct?
    Mr. Alles. That is in Riverside, yes, ma'am. Those 
positions are going to the Air and Marine Ops Center so they 
can get better coverage. We had a lot of uncovered positions 
where we were receiving information, and we can't actually--we 
could not process the information due to lack of personnel.
    So those 55 positions have been very beneficial. Currently 
45 of those positions have been selected. A high density of 
veterans have been selected in those positions, so we are well 
on our way to getting to the 55 number overall. So 45, 55 
selected; not actually on-board yet, but they are well into the 
process of being on-boarded at this time.
    Mrs. Torres. In training, how long before they are actually 
in the field?
    Mr. Alles. Honest, I will have to check that. I know that a 
number of them already have radar expertise coming out of the 
military service, will not require so much training, but I 
don't have an exact figure on that once they start down that 
training rack.
    Mrs. Torres. Did the 2014 Border Patrol Pay Reform Bill 
have any impact on the Office of Air and Marine, and are there 
any pay challenges within the Office of Air and Marine?
    Mr. Alles. So the Border Patrol Act was, you know, as you 
are probably aware, for the Border Patrol itself. One of our 
primary pay challenges inside of Air and Marine is the diverse 
pay set that we have. So we have members that are working on 
your normal Federal overtime, FIFA; we have members that are 
working on law enforcement AUO pay; goodness, also LEAP. I am 
drawing a blank on what AUO means. Administrative 
Uncontrollable Law of Overtime, and then the LEAP pay, the Law 
Enforcement Availability Pay.
    We would like to get the--we would like as an efficiency to 
get all of our agents onto the LEAP statute. That would 
actually be a budget efficiency for us, it would save us money, 
it would help correct the very diverse pay sets that we have 
inside of OAM overall. So I think getting our members onto--the 
remaining members we have in OAM onto the LEAP statute would be 
very helpful for us overall and would actually save us some 
money.
    Mrs. Torres. What does your rank-and-file feel about that?
    Mr. Alles. They are overall are in favor of that. It 
provides more predictability for them since it is an 
availability pay and not on overtime pay. So it is more 
predictable in terms of the pay coming each year than when you 
are working in the AUO and the AUO area.
    Mrs. Torres. How does that impact their retirement?
    Mr. Alles. It would actually--whether it is AUO or LEAP, I 
mean, that is all going to factor into their retirement pay. It 
would really depend on if the LEAP pay was higher than the AUO 
pay as whether that would make it better or worse for 
retirement. I think overall it is generally neutral, as I talk 
to folks about the effect it would have on them.
    Mrs. Torres. Okay. Thank you. I yield back my time.
    Mrs. Miller. I thank the gentlelady very much.
    General and Mr. Roth, I am going to go back to what Mr. 
Vela was talking about in regards to the authorities between 
the Air and Marine and the Coast Guard, and I want to sort-of 
follow up on that, because--and I know we always talk about the 
Southern Border, but on the Northern Border, actually in my 
district, we have--at Selfridge Air National Guard Base, we 
have an Air and Marine division there who are very, very 
effective, I think.
    Let me just take this opportunity to thank everybody that 
works at the Air and Marine, all of your brave men and women 
that are out on our front lines each and every day. They just 
do remarkable, remarkable work, and we all have the utmost 
gratitude and respect for the work that they do.
    But at the Air and Marine in our area, you know, they have 
got obviously all the personnel and then the air assets, the 
water assets. Air assets, they both have fixed wings and rotor, 
et cetera. Also on the same Air National Guard base actually as 
Air and Marine as a tenant, we also have under the Homeland 
Security umbrella, Coast Guard Air Station Detroit is there.
    Then in addition to that, the Border Patrol is actually 
operating something that we call the Operational Integration 
Center, which is all the high-tech bells and whistles of really 
trying to analyze all the information that they are fed from 
the various stakeholders about assessing the threat, responding 
to the threat, and so on and so forth.
    But I will tell you with all of that, sometimes I am a bit 
confused myself about the overlap of the Air and Marine and the 
Coast Guard, and whether or not the missions are so different, 
and the type of equipment that they need and you need is so 
different. I will just tell you that because the Coast Guard 
right now in the Great Lakes doesn't have any ability to have 
their helicopters with de-icing equipment on it, so they are 
looking for some Blackhawks also as opposed to the equipment 
that they have.
    But anyway, it just sort-of always leads to conversations 
about the kind of equipment that Air and Marine has and the 
kind of equipment that the Coast Guard has, and in the Great 
Lakes sector and along the Northern Border there, the two of 
you operating in a similar--in the identical environment, quite 
frankly.
    So if you could, could you just talk a little bit more 
about your mission being so different that you do have to have 
specialized equipment different than the Coast Guard, just for 
my own clarification?
    Mr. Alles. So one thing I should point out is that when it 
comes to the maritime equipment, there is a Boat Commodities 
Council inside of DHS that helps us coordinate equipment 
purchase between ourselves and what the Coast Guard is doing. 
So in the areas that we can get commonality with the Coast 
Guard because the mission set matches closely, we do. For 
instance, we have received a number of safe boats from the 
Coast Guard that we are using in our operations on the Riverine 
that the Coast Guard had accessed that have gone right into our 
inventory and have performed well for us. So that BCC, as we 
call it, is actually coordinating these activities.
    We do the small engine repair for the Coast Guard down at 
our National Marine Center in St. Augustine, so we--that, 
again, is an efficiency that we perform for the Coast Guard. We 
have to do engine repair ourselves anyways, because we have a 
lot of small--I would call them small boats. They are fairly 
large for you know, for pleasure boats, but they are a smaller 
asset compared to what the Coast Guard operates.
    But I would say beyond that, as I think about the Northern 
Border, the main difference is, as I think about the maritime 
and Northern Border is, how do you tackle these open spaces? I 
think the issue for us is that we have to develop information 
of what I will call law enforcement intelligence, and that 
really involves casework with ICE or other Federal and State 
and local agencies task force that we participate in, that is 
strictly law enforcement type of work.
    It also involves a use of Classified intelligence in some 
situations, it involves potentially buying criminal sources 
through the confidential human source program. All these kinds 
of things along with maritime domain awareness and patrols and 
the capability to respond are all necessary to actually enforce 
the laws of the United States in these open areas.
    Now, in the areas where we are operating with the Coast 
Guard, we cooperate in a very high manner. I would say this 
probably is probably less apparent in the Great Lakes area, we 
do cooperate with the Coast Guard, but when you start talking 
about operating on the high seas, I have no capacity to do 
anything really outside territorial waters. That is not so much 
of a legal issue, although that is a factor for us, it is 
really equipment that I am operating.
    The Coast Guard operates equipment such as cutters that can 
do these kinds of interdictions out there, and we are 
frequently coordinating now through these joint task forces 
east and west of our operations with the Coast Guard so that we 
don't have overlap in patrol. When we have detections out 
there, we are at actually coordinating the response for the 
local Coast Guard sector or local Coast Guard district if we 
don't have an asset to respond to it or if it is too far out 
for us to actually get to.
    So I think the degree of cooperation is very impressive 
from that standpoint. I think there is a good synergy between 
the two organizations. I don't see it so much as an overlap in 
missions here. I think there would be substantial problems here 
if we thought we were going to try to drive this all one 
direction or the other in terms of how you would actually 
characterize it, what CBP does as a mission set.
    But, again, I think this aspect that we are talking about 
in terms of our law enforcement kind of primary mission set is 
important to securing both the maritime and the Northern Border 
overall, because the areas are so large and there is such a low 
density overall of assets, whether it is Coast Guard or Air and 
Marine, to actually address such a large and open area.
    Mrs. Miller. Mr. Roth, do you have any comment on that?
    Mr. Roth. I think you raise a very good point. I think one 
of the Secretary's signature efforts in his time in office has 
been to try to do a unity of effort. Really what that means is 
that you have to step back from what the roles currently are to 
understand what problem you are solving and what sort of tools 
you can bring to that problem.
    So as a result of that, I think for the first time in DHS's 
history, we have a Joint Requirements Council, for example, 
that drives components into the table, into the sort of 
bargaining table to understand, okay, Coast Guard, you are 
doing this, we are going to be doing this. So there has been a 
lot of coordination that has occurred. One of the terrific 
developments, I think, in the last year is the fact the Air and 
Marine program is now part of, for example, an acquisitions 
review process in which they had never been before. So there 
was a higher degree of jointness at least in sort of 
acquisition management.
    As far as the mission set, I would agree, you raise a very 
good question as to if the purpose is to protect the U.S. 
border, and both components have that mission, is this really 
the best way to do it? Historically we have grown up with 
Customs as one single entity and Coast Guard obviously is a 
separate one in two different cabinet departments. So asking 
those questions, I think, is fair. I don't have an answer for 
you, but it is certainly an interesting question to explore.
    Mrs. Miller. Well, you did mention in your report, talking 
about Coast Guard assets and work that they can do, and perhaps 
jointness in sharing the taxpayer--with the best bang for the 
buck for the taxpayers, et cetera, what you mentioned in your 
opening comments about the Blackhawks and whether or not Air 
and Marine should have had the Coast Guard refurbish them. Do 
you want to talk about that?
    Mr. Roth. Sure. That was, I think, a lesson that the 
Department learned with regard to unity of effort. It happened 
before any of the efforts that have happened the last year, 
but, you know, we did an audit that said it was in the 
neighborhood of hundreds of millions of dollars that could have 
been saved if CBP had used the Coast Guard Elizabeth City 
station to do the refurbishing. Likewise, the Office of 
Management within DHS commissioned an independent study, 
independent of ours, which basically confirmed what it is that 
we found.
    As a result of those two things, I am gratified to say that 
these kinds of things are now being forced into the Department 
for high-level decision making. There is, for example, an 
aviation governance board that both Coast Guard and CBP 
participate in to try to hash out these problems. So there is a 
unity of effort and we can save some money as we go.
    Mrs. Miller. You know, the last question I want to ask 
here, because, again, not to go into the Northern Border, and I 
appreciate all the challenges we have at the Southern Border, 
but because the Northern Border gets, I think, short-changed on 
resources for the kinds of challenges that we have there. I 
know that Air and Marine had done a pilot program on the Great 
Lakes with using a radar surveillance to a much greater degree. 
I think you did that in 2013 and then into 2014, actually. I 
don't know if you are familiar with what I am talking about, 
but I know our locals were very, very enthusiastic about all of 
that, not just the local Air and Marine wing or the Coast 
Guard, but, I mean, our local Marine, sheriff patrols, and 
everybody else amongst an entire swath of area there.
    I am just wondering if you have any comment on that or what 
your thought was. I think it was a pilot program that----
    Mr. Alles. Right, it was a pilot program, ma'am. It was the 
sea speed radar that we utilized up there. We did do a 
demonstration with it last year for air targets. It looked 
promising in that area. We would like to do another 
demonstration in the maritime possibly in the San Diego area.
    Right now the issue is, you know, most things are, is 
funding for it. There are a number of unfunded requirements 
inside CBP. This one did not break high enough to get funding 
for that demonstration. It does compete with a number of other 
efforts that we have underway, one being SEATAR, which is a 
satellite-based, commercial satellite-based system we have been 
using in the maritime for detection, and then also an effort 
that was done by Science and Technology called the coastal 
surveillance system that was also looked at in San Diego.
    It is not so much of a radar system like Sea Speed is; it 
is really a system that integrates existing feeds together and 
to bring a picture together overall. So that is kind-of where 
we are in that program there. It just didn't break high enough 
on the unfunded list to get funding for this next demo phase.
    Mrs. Miller. Okay. I appreciate that.
    Well, I want to thank both the witnesses for being here 
this morning. Mr. Roth, I don't know, did you have any 
additional comment on that or----
    Mr. Roth. I did not. Thank you.
    Mrs. Miller. Okay. All right. I certainly thank you for 
being here. As I say, we certainly honor the brave men and 
women in the Air and Marine. I see them every day back in my 
district and certainly around the entire Nation.
    That being said, I think because of the Department of 
Homeland Security coming into existence after 9/11 and sort-of 
cobbling together all of these various agencies, we always want 
to have the unity of purpose, as the Secretary keeps talking 
about. So the purpose of this hearing was to look at some of 
those kinds of things, not in an adversarial way, obviously, 
but in a way that we are able to always--I always say that the 
largest room is the room for improvement in any agency.
    Another thing with this subcommittee and this committee, we 
always look for is your suggestions to us, being proactive to 
this committee on the kinds of things that we need to be doing 
and to be aware of to make sure that you are resourced properly 
and then that you are using your resources as we need you to do 
so.
    So we are looking forward to some of those things. As we 
talked about, the metrics. This border security bill as it is 
moving through is obviously critically important. We will be 
looking for everybody in the environment there for assisting us 
as this border security bill moves through, everybody that is 
involved in border security, and metrics, performance metrics, 
et cetera, so that we are able to satisfy the American public 
about operational control of all of our borders. So we 
appreciate that.
    Any other questions that any of the other Members may have, 
we are going to leave the committee record open, and so you may 
be getting some additional questions, and we will appreciate 
any answers that you may have to that.
    Before I conclude, is there anything else that either of 
you would like to add or questions that you think we should 
have asked that we did not? Mr. Roth?
    Mr. Roth. No. Thank you.
    Mrs. Miller. All right.
    Mr. Alles. No, ma'am.
    Mrs. Miller. No?
    Mr. Alles. Just appreciate the opportunity to appear before 
you all and appreciate the committee's overall support to CBP 
and Air and Marine has been very helpful to us over the years 
and has been fundamental in the capabilities we now have.
    Mrs. Miller. Thank you very much. With that, the hearing is 
adjourned.
    [Whereupon, at 10:56 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
